           Evaluation Report



The Social Security Administration’s
  Completion of Program Integrity
            Workloads




       A-07-14-24071 | August 2014
MEMORANDUM


Date:      August 18, 2014                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Completion of Program Integrity Workloads
           (A-07-14-24071)

           The attached final report presents the results of our review. Our objective was to review the
           Social Security Administration’s progress in completing program integrity work despite
           congressional appropriations that were generally lower than the Agency requested during the
           annual budget process.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Completion of Program
Integrity Workloads
A-07-14-24071
August 2014                                                                   Office of Audit Report Summary

Objective                                     Our Findings

To review the Social Security                 SSA’s budget appropriations increased each year from FYs 2002
Administration’s (SSA) progress in            through 2010 but decreased from FYs 2011 through 2013. Further,
completing program integrity work despite     SSA’s funding levels were lower than it requested almost every year
congressional appropriations that were        since FY 2002. In addition, SSA did not receive any dedicated
generally lower than the Agency requested     funding for program integrity work during FYs 2003 through 2008.
during the annual budget process.             During that period, SSA’s program integrity workloads decreased.
                                              Since FY 2009, when SSA began receiving dedicated program
Background                                    integrity funding, the Agency had generally begun increasing its
                                              program integrity workloads. In FY 2014, SSA received
The independent certified public              approximately $1.2 billion in dedicated program integrity funding to
accounting firm that audited SSA’s Fiscal     perform 510,000 full medical CDRs and more than 2.4 million
Year (FY) 2013 financial statements           non-medical redeterminations.
shared its concerns with us regarding the
impact reduced funding had on                 Despite improvements, SSA was performing less program integrity
stewardship activities. Specifically, these   work than it had in the past. For example, SSA performed about half
concerns pertained to how reduced             the number of full medical CDRs in FY 2013 than it did in FY 2002.
funding had                                   Further, SSA had performed non-medical redeterminations for nearly
                                              30 percent of SSI recipients since FY 2010, but this amount was still
1. reduced SSA’s ability to complete          less than the 36 percent it performed in FY 2003. Therefore, SSA
   critical workloads,                        missed opportunities for potential savings.

2. increased the continuing disability        Since it was performing less program integrity work, SSA had
   review (CDR) backlog,                      developed a backlog of full medical CDRs since FY 2002. We
                                              estimated SSA might only be able to temporarily reduce the full
3. decreased Supplemental Security            medical CDR backlog based on the Agency’s plans for program
   Income (SSI) redeterminations, and         integrity workloads under different funding scenarios.

4. resulted in field offices reducing the     Our Recommendation
   hours they were open to the public.
                                              We recommend SSA prioritize resources toward medical CDR and
We completed other audits that address the    non-medical redetermination workloads to ensure only eligible
concerns regarding field office               individuals continue receiving benefits and are receiving the correct
performance, service, and completion of       payment amounts.
workloads. This review focused on
medical CDRs and non-medical                  SSA agreed with our recommendation.
redeterminations—SSA’s predominant
program integrity tools.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     Continuing Disability Reviews ..................................................................................................2
     Redeterminations .......................................................................................................................3
Results of Review ............................................................................................................................3
     Effect of Funding on Program Integrity Workloads ..................................................................4
           Program Integrity Funding ...................................................................................................6
     Continuing Disability Reviews ..................................................................................................8
     Redeterminations .......................................................................................................................9
Conclusions ....................................................................................................................................11
Recommendation ...........................................................................................................................12
Agency Comments .........................................................................................................................12
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Budget Requests, Appropriations, and Work Years ........................................... B-1
Appendix C – Continuing Disability Reviews, Fiscal Years 2002 Through 2013 .................... C-1
Appendix D – Continuing Disability Reviews Under Different Program Integrity Funding
           Scenarios, Fiscal Years 2014 Through 2023 ......................................................... D-1
Appendix E – Redeterminations, Fiscal Year 2014 ....................................................................E-1
Appendix F – Agency Comments ............................................................................................... F-1
Appendix G – Major Contributors.............................................................................................. G-1




SSA’s Completion of Program Integrity Workloads (A-07-14-24071)
ABBREVIATIONS
Act                 Social Security Act

ARRA                American Recovery and Reinvestment Act of 2009

BCA                 Budget Control Act of 2011

CDR                 Continuing Disability Review

C.F.R.              Code of Federal Regulations

DDS                 Disability Determination Services

DI                  Disability Insurance

FY                  Fiscal Year

OASDI               Old-Age, Survivors and Disability Insurance

OIG                 Office of the Inspector General

OMB                 Office of Management and Budget

PIAE                Program Integrity Administrative Expenses

POMS                Program Operations Manual System

Pub. L. No.         Public Law Number

SGA                 Substantial Gainful Activity

SSA                 Social Security Administration

SSI                 Supplemental Security Income

Stat.               United States Statutes at Large

U.S.C.              United States Code




SSA’s Completion of Program Integrity Workloads (A-07-14-24071)
OBJECTIVE
Our objective was to review the Social Security Administration’s (SSA) progress in completing
program integrity work despite congressional appropriations that were generally lower than the
Agency requested during the annual budget process.

BACKGROUND
Title II of the Social Security Act (Act) provides Disability Insurance (DI) benefits to wage
earners and their families if the wage earner becomes disabled. The Act also provides benefits to
certain disabled family members of deceased or retired wage earners. 1 DI benefits are funded
from the DI Trust Fund. 2

Title XVI of the Act established the Supplemental Security Income (SSI) program, a Federal
cash assistance program that provides a minimum level of income to financially needy
individuals who are aged, blind, or disabled. 3 SSI payments are funded from the Department of
the Treasury’s general fund. 4 No individual shall be considered eligible for SSI payments for
any period during which they have income or resources that exceed the allowable amounts
established under the Act. 5 SSI recipients are required to report events and changes of
circumstances that may affect their eligibility and payment amounts, including changes in
income, resources, and living arrangements. 6

The independent certified public accounting firm that audited SSA’s Fiscal Year (FY) 2013
financial statements shared its concerns with us regarding the impact reduced funding had on
stewardship activities. Specifically, these concerns pertained to how reduced funding had

1. reduced SSA’s ability to complete critical workloads,

2. increased the continuing disability review (CDR) backlog,

3. decreased SSI redeterminations, and

4. resulted in field offices reducing the hours they were open to the public.




1
    Act § 201 et seq., 42 U.S.C. § 401 et seq. See also 20 C.F.R. §§ 404.130 - 404.133.
2
    Act § 201(h), 42 U.S.C. § 401(h).
3
    Act § 1601 et seq., 42 U.S.C. § 1381 et seq. See also 20 C.F.R. § 416.101 et seq.
4
    Id. The general fund of the Treasury is financed through tax payments from the American public.
5
    Act § 1611(a), 42 U.S.C. § 1382(a); 20 C.F.R. § 416.202(c) and (d).
6
    Act § 1631(e)(1), 42 U.S.C. § 1383(e)(1); 20 C.F.R. §§ 416.701 and 416.708.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                       1
We completed other audits that address the concerns regarding field office performance, service,
and completion of workloads. 7 This review focused on medical CDRs and non-medical
redeterminations—SSA’s predominant program integrity tools.

Continuing Disability Reviews
After SSA determines an individual is disabled, it conducts periodic CDRs to determine whether
the individual continues to be disabled. 8 By regulation, review diaries are set based on the
likelihood of medical improvement. SSA generally cannot find an individual is no longer
disabled without finding the individual has medically improved. As such, diaries are set for 6 to
18 months when improvement is expected, up to 3 years when improvement is possible, 9 and
5 to 7 years when improvement is not expected (that is, permanent impairments). 10 If SSA
determines the recipient is no longer disabled, it ceases benefits.

SSA employs a predictive model that determines the likelihood of medical improvement for
disabled beneficiaries. SSA selects the records of those beneficiaries that have been identified as
having a high likelihood of medical improvement for a full medical review by disability
determination services (DDS). SSA mails those beneficiaries identified as having a medium or
low likelihood of medical improvement a questionnaire. 11 If the completed mailer questionnaire
indicates potential medical improvement, SSA sends the case to the DDS for a full medical
review. 12




7
 SSA OIG, Field Office Performance (A-15-12-11290), November 2013; Work CDRs for Disabled Title II
Beneficiaries with Earnings (A-01-12-12142), March 2014; and SSA’s Reduction in Field Office Operating Hours
(A-01-14-14039), August 2014.
8
 Social Security Disability Benefits Reform Act of 1984, Pub. L. No. 98-460, § 15, 98 Stat. 1794, 1808; Act,
§ 221(i), 42 U.S.C. § 421(i); 20 C.F.R. §§ 404.1589 and 416.989.
9
 The Commissioner of Social Security can waive the requirement to conduct CDRs on non-permanent disabilities
due every 3 years. 20 C.F.R. §§ 404.1590(g) and 416.990(g).
10
  20 C.F.R. §§ 404.1590(d) and 416.990(d). A full medical CDR should be conducted no later than 12 months after
birth for a child whose low birth weight was a material contributor to the determination that the child was disabled
under the SSI program. 20 C.F.R. § 416.990(b)(11).
11
  SSA does not use the mailer questionnaire for CDRs of children receiving SSI or for SSI age 18 redeterminations.
SSA conducts an SSI age 18 redetermination to reevaluate a child receiving SSI using adult disability criteria when
the child turns 18. SSI age 18 redeterminations are included as part of the full medical CDR workload.
12
  In addition to medical CDRs, SSA also performs work CDRs to determine if disability recipients who have
returned to work are performing substantial gainful activity (SGA). SGA is “the performance of significant physical
or mental activities in work for pay or profit, or in work of a type generally performed for pay or profit.” To qualify
for disability, an individual must be unable to engage in SGA. Therefore, if a work CDR reveals that a disability
recipient is performing SGA, SSA ceases benefits. See SSA, POMS, DI 24001.001 (May 13, 1999), and
DI 13010.001 (April 22, 2009). We do not cover work CDRs in this review.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                       2
Redeterminations
A redetermination is a review of an SSI recipient’s non-medical eligibility factors, such as
income, resources, and living arrangements. SSA uses the redetermination to determine whether
recipients are still eligible for SSI and receiving the correct payments. 13 SSA is not required to
complete a given number or percentage of redeterminations. Instead, SSA determines the
number of redeterminations to complete based on funding resources.

First, SSA estimates the number of unscheduled and automated redeterminations it will conduct
during the year. 14 Next, SSA calculates the targeted number of discretionary redeterminations it
will select based on available funding. SSA identifies discretionary redeterminations each
September when it runs an error profiling system that identifies the expected amount of the SSI
overpayment. The system assigns each recipient a score based on the estimated amount of the
overpayment. 15 Based on the assigned score, recipients are ranked from highest to lowest
predicted dollar amount of SSI overpayment. 16

RESULTS OF REVIEW
SSA’s budget appropriations from Congress increased each year from FYs 2002 through 2010
but decreased from FYs 2011 through 2013. 17 Further, SSA’s funding levels were lower than it
requested almost every year since FY 2002. In addition, SSA did not receive any dedicated
funding for program integrity work during FYs 2003 through 2008. During that period, SSA’s
program integrity workloads decreased. Since FY 2009, when SSA began receiving dedicated
program integrity funding, the Agency had generally begun increasing its program integrity
workloads. In FY 2014, SSA received approximately $1.2 billion in dedicated program integrity




13
 Act §§1611(c)(1) and 1619(b)(2)(A), 42 U.S.C. §§ 1382(c)(1) and 1382h(b)(2)(A); 20 C.F.R. § 416.204; SSA,
POMS, SI 02305.001 (October 4, 2007).
14
  Unscheduled redeterminations are conducted based on a recipient or couple’s reported changes in circumstances
that may affect eligibility and payment amount. See SSA, POMS, SI 02305.001 B.2 (October 4, 2007). Automated
redeterminations are selected based on specific case characteristics and are categorized depending on the likelihood
of an error. See SSA, POMS, SI 02305.013 A.1.b and B (February 12, 2014).
15
     SSA POMS, SI 02305.013 A.1.a (February 12, 2014).
16
     SSA POMS, SI 02305.013 (February 12, 2014).
17
  For the purposes of this report, SSA’s appropriations refers to SSA’s budget authority. SSA’s budget authority
generally includes Limitation on Administrative Expenses, dedicated program integrity funding, research funding,
and funding for the Office of Inspector General. Limitation on Administrative Expenses is the amount of money
Congress allows SSA to spend annually to carry out the administrative functions of the Agency.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                    3
funding to perform 510,000 full medical CDRs and more than 2.4 million non-medical
redeterminations. 18

Despite improvements, SSA was performing less program integrity work than it had in the past.
For example, SSA performed about half the number of full medical CDRs in FY 2013 than it
performed in FY 2002. Further, SSA had performed non-medical redeterminations for nearly
30 percent of SSI recipients since FY 2010, but this amount was still less than the 36 percent it
performed in FY 2003. Therefore, SSA missed opportunities for potential savings.

Since it performed less program integrity work, SSA had developed a backlog of full medical
CDRs since FY 2002. We estimated SSA might only be able to temporarily reduce the full
medical CDR backlog based on the Agency’s plans for program integrity workloads under
different funding scenarios.

Effect of Funding on Program Integrity Workloads
Since FY 2002, SSA’s appropriations have generally been less than SSA requested (see Figure 1
and Appendix B). Each September, SSA submits a Commissioner’s Budget to the Office of
Management and Budget (OMB). OMB uses the Commissioner’s Budget to prepare the
President’s budget request to Congress. Congress then votes on the funding levels that will be
appropriated to SSA. In most years, Congress appropriated less than SSA requested in the
Commissioner’s Budget.




18
  SSA’s MIVision National RZ Volume Tracker indicated the Agency’s FY 2014 goal is to conduct more than
2.4 million non-medical redeterminations and 178,900 limited issues, also known as targeted redeterminations.
Limited issues are selected for limited review because of a single issue, such as an alert resulting from a match
between SSA’s records and those of another agency. See SSA, POMS, SI 02305.015 A.1 (October 14, 2011).



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                     4
                           Figure 1: SSA Budget Requests and Appropriations
                                        FYs 2002 Through 2013




Although SSA’s funding increased every year from FYs 2002 through 2010, the number of work
years SSA employees completed did not increase accordingly (see Figure 2 and Appendix B). 19
For example, work years declined in FYs 2006 and 2007 while congressional appropriations
increased. SSA had a boost in work years in FYs 2009 and 2010 as a result of the American
Recovery and Reinvestment Act of 2009 (ARRA), which Congress passed to preserve and create
jobs and promote economic recovery. ARRA provided SSA with an additional $500 million
beyond regular congressional appropriations to assist with processing disability and retirement
workloads. 20 Of the $500 million, SSA spent over $463 million on labor costs for Federal and
State employees. However, ARRA funds were a one-time, non-recurring appropriation outside
of the standard budget process. Therefore, as SSA’s appropriations declined after FY 2010, its
work years also declined. As a result, SSA’s FY 2013 work years were slightly lower than in
FY 2002.




19
  Work years represent both direct and indirect time used by SSA employees. Indirect time includes overhead, such
as time spent on training, travel, leave, and holidays.
20
     See Pub. L. No. 111-5, Title VIII, 123 Stat. 115, 185-186.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                 5
                 Figure 2: SSA Work Years Completed, FYs 2002 Through 2013




Program Integrity Funding
We previously reported that, according to SSA, resource limitations and increases in its core
workloads prevented it from conducting full medical CDRs and redeterminations at previously
high levels. 21 Specifically, without dedicated program integrity funding from FYs 2003 through
2008 (see Table 1), SSA chose how to allocate its funding between program integrity and other
core workloads. 22 In those years, spending on program integrity generally declined, which
resulted in the completion of fewer full medical CDRs and redeterminations. In FY 2009, when
SSA began receiving funding dedicated to program integrity workloads, the Agency increased
spending on program integrity while taking less funding away from other workloads.




21
  SSA OIG, Full Medical Continuing Disability Reviews (A-07-09-29147), March 2010, p. 2; and Supplemental
Security Income Redeterminations (A-07-09-29146), July 2009, p. 2.
22
  FY 2002 marked the end of a 7-year plan to eliminate a backlog of about 4.3 million CDRs that existed in
FY 1996. According to SSA, the backlog of full medical CDRs occurred because of budget constraints on
conducting CDRs. In response to this backlog, Congress authorized about $4 billion in the Contract with America
Advancement Act of 1996 (Pub. L. No. 104-121, Title I, § 103, Senior Citizens’ Right to Work Act of 1996, 110 Stat.
847, 848-849) to eliminate the CDR backlog. From FYs 1996 through 2002, SSA conducted an estimated
9.4 million CDRs and became current with its CDR workload.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                   6
 Table 1: Program Integrity Funding, Spending, and Workloads, FYs 2002 Through 2013
                     Dedicated
                                         Program                               Full
                     Program                              Mailer Only                      Number of
        Fiscal                           Integrity                           Medical
                     Integrity                              CDRs                        Redeterminations
        Year                             Spending                             CDRs
                      Funding                             Completed 24                    Completed 25
                                        (Millions) 23                       Completed
                     (Millions)
        2002            $630                $976            729,242          856,849       2,311,499
        2003             $0                 $922            701,870          669,385       2,449,674
        2004             $0                 $891            923,670          681,010       2,278,566
        2005             $0                 $757            985,096          530,381       1,724,875
        2006             $0                 $523           1,020,725         316,913       1,070,822
        2007             $0                 $417            557,215          207,637        692,485
        2008             $0                 $555            845,915          245,388        899,507
        2009            $504                $715            785,023          316,960       1,389,931
        2010            $758                $879            631,615          324,567       2,248,163
        2011            $756                $909           1,063,405         345,492       2,223,097
        2012            $756                $979            961,069          443,233       2,407,836
        2013            $743               $1,098          1,146,947         428,568       2,436,705

The Budget Control Act of 2011 (BCA) was to provide more funding for program integrity
workloads for FYs 2012 through 2021 than SSA had received in past years. 26 While SSA
received less than BCA-level dedicated program integrity funding in FYs 2012 and 2013, the
Consolidated Appropriations Act, 2014, provided full BCA funding for program integrity
workloads in FY 2014. 27 Specifically, SSA received almost $1.2 billion in dedicated program
integrity funding for FY 2014.

SSA does not plan to request program integrity funding at BCA levels beginning in FY 2016.
Rather, SSA will request higher funding levels to establish a dedicated, dependable source of
mandatory funding to conduct CDRs and redeterminations. 28 This funding would be in addition
to SSA’s annual appropriations and maintained in a Program Integrity Administrative Expenses


23
  Program integrity funding includes spending on CDRs and redeterminations. CDR spending includes costs for
full medical CDRs, mailers, overhead, and associated appeals related to CDRs. Redetermination spending prior to
FY 2008 does not include spending on limited issues.
24
 This number only includes mailer CDRs that did not result in full medical CDRs. Mailer CDRs resulting in a full
medical CDR are included in the count of full medical CDRs completed.
25
     The number of redeterminations does not include limited issues.
26
     Pub. L. No. 112-25, Title I, § 101 125 Stat. 240, 243-244.
27
     Pub. L. No. 113-76, § 2, Division H, Title IV, 128 Stat. 5, 406-407.
28
  SSA, Justification of Estimates for Appropriations Committees Fiscal Year 2015, Budget Overview, March 2014,
pages 11-12.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                   7
(PIAE) account, which would be used solely for program integrity workloads. In addition, SSA
could still spend regularly appropriated funds for program integrity workloads.

Continuing Disability Reviews
By regulation, review diaries are set to conduct periodic CDRs on disabled individuals. 29
However, with years of reduced spending on program integrity, SSA had not been completing all
CDRs when they came due. Therefore, SSA created a backlog of full medical CDRs and missed
opportunities for potential savings. The backlog had decreased somewhat since FY 2009, when
SSA began receiving dedicated funding for program integrity workloads (see Figure 3 and
Appendix C, Table C–1). Nonetheless, there was still a backlog of about 1.3 million full medical
CDRs at the end of FY 2013.

         Figure 3: Full Medical CDR Backlog and Completions, FYs 2002 Through 2013




Because of budget uncertainty, SSA estimated the numbers of full medical CDRs it could
complete in the future based on different funding scenarios. For example, SSA reported it would
need $11.8 billion from FYs 2014 through 2023 to eliminate the full medical CDR backlog by
FY 2018 and prevent its recurrence through FY 2023 (see Appendix D, Table D–1). At this
funding level, SSA estimated it would conduct more than 8.8 million full medical CDRs.
Further, SSA estimated it would identify several billion dollars in lifetime Federal benefit
savings each year. 30



29
     Supra notes 8 and 9.
30
     Federal benefit savings include savings to SSA, Medicare, and Medicaid.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                8
At the BCA funding level, the Agency estimated it would conduct approximately 7.8 million full
medical CDRs at a cost of $10.3 billion during FYs 2014 through 2023 (see Appendix D,
Table D–2). 31 Under this funding scenario, SSA estimated it would identify several billion
dollars in lifetime Federal benefit savings each year. Further, we estimated SSA would reduce
the full medical CDR backlog to 382,500 by the end of FY 2018. However, we estimated the
backlog would grow in subsequent years and exceed 1 million full medical CDRs by FY 2023.

Another option is that SSA receives funding for the PIAE account beginning in FY 2016, with
funding at BCA levels in FYs 2014 and 2015. Under this funding scenario, SSA estimated it
would conduct more than 8 million full medical CDRs at a cost of approximately $10.7 billion
during FYs 2014 through 2023 (see Appendix D, Table D–3). As opposed to the BCA-only
funding level, SSA would further reduce the backlog by FY 2018. However, the backlog would
begin to grow in subsequent years.

SSA also identified the impact on CDRs if it received dedicated program integrity funding at
levels similar to FYs 2010 through 2013. Specifically, SSA estimated it would conduct
approximately 3.1 million full medical CDRs at a cost of $4.1 billion during FYs 2014 through
2023 (see Appendix D, Table D–4). Under this funding scenario, we estimated the full medical
CDR backlog would grow to more than 5.7 million by the end of FY 2023.

With the funding SSA received for FY 2014, the Agency expects to conduct 510,000 full
medical CDRs. While the number of CDRs planned for FY 2014 is higher than the number
completed in FY 2013 (see Table 1), it is still lower than historic rates. For example, if, during
FY 2014, SSA conducted full medical CDRs at the FY 2002 level of 856,849 full medical CDRs,
we estimated SSA would identify more than $4.6 billion in additional Federal benefit savings
(see Appendix D, Table D–5). It would cost SSA approximately $372 million to complete these
additional CDRs, which represent 3 percent of SSA’s FY 2014 appropriated funding. 32

SSA must balance its workloads and priorities between public service and stewardship.
However, by making more funds available for CDRs, SSA will achieve substantial savings.
Further, SSA will ensure only eligible individuals continue receiving benefits and receive the
correct payment amounts. Therefore, SSA should prioritize resources toward medical CDR
workloads.

Redeterminations
SSA is not required to perform a specific number or percentage of non-medical redeterminations
each year. Rather, SSA determines how many redeterminations to conduct during the year based



31
 The BCA provided funding levels through FY 2021. Therefore, SSA estimated program integrity funding for
FYs 2022 and 2023 would be the same as funding for FYs 2017 through 2021 under the BCA.
32
  In FY 2014, SSA received more than $11.8 billion in appropriated funding, including the almost $1.2 billion in
dedicated program integrity funding.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                    9
on the dedicated program integrity funding it expects to receive in its budget appropriations. In
addition, SSA considers the amount of program integrity funding it will use for CDRs.

We previously found SSA completed redeterminations on a smaller percentage of SSI recipients
than it had in the past. 33 For example, in FY 2003, SSA completed redeterminations on
36 percent of SSI recipients (see Table 2). However, in FY 2007, as the number of SSI
recipients continued growing, SSA completed redeterminations for only 10 percent of SSI
recipients. While the number of redeterminations had increased since FY 2007, especially since
FY 2009 when SSA began receiving dedicated funding for program integrity workloads, SSA
still completed redeterminations on a lower percentage of recipients than in FY 2003. For
example, in FY 2013, SSA completed redeterminations on 29 percent of recipients.

SSA indicated that decreases in the number of redeterminations were directly linked to decreases
in payment accuracy. For example, in FY 2003, when SSA completed redeterminations on
36 percent of SSI recipients, the percent of payments free of overpayment error was at a high of
93.9 percent (see Table 2). However, in FY 2013, SSI overpayment accuracy was 92.4 percent.

                     Table 2: Redeterminations as a Percentage of SSI Recipients
                                      FYs 2002 Through 2013
                                                                 Redeterminations       SSI Overpayment
        Fiscal        Number of                   SSI
                                                                 as a Percentage of         Accuracy
        Year       Redeterminations 34        Recipients 35
                                                                   SSI Recipients         Percentage 36
         2002            2,311,499              6,709,984                34                   93.4
         2003            2,449,674              6,781,168                36                   93.9
         2004            2,278,566              6,893,912                33                   93.6
         2005            1,724,875              7,024,979                25                   93.6
         2006            1,070,822              7,109,241                15                   92.1
         2007             692,485               7,267,526                10                   90.9
         2008             899,507               7,383,815                12                   89.7
         2009            1,389,931              7,504,271                19                   91.6
         2010            2,248,163              7,682,338                29                   93.3
         2011            2,223,097              7,905,492                28                   92.7
         2012            2,407,836              8,116,250                30                   93.7
         2013            2,436,705              8,277,694                29                   92.4




33
     SSA OIG, Supplemental Security Income Redeterminations (A-07-09-29146), July 2009, p. 3.
34
     The number of redeterminations does not include limited issues.
35
 The number of SSI recipients receiving a Federal SSI payment, State supplement, or both at the beginning of each
FY, as found in SSA’s SSI Monthly Statistics publications.
36
     This number represents the percentage of SSI payments free of overpayment error.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                10
Based on our previous findings, we recommended SSA establish a methodology to identify the
number of redeterminations needed each year, and SSA agreed with our recommendation. 37
However, SSA did not establish a methodology to identify the number of redeterminations that
need to be completed because it used a predictive model to determine which SSI recipients
receive a redetermination each year. While the predictive model ranks SSI recipients based on
the predicted amount of SSI overpayment error, SSA determines the annual number of
redeterminations to complete based on the dedicated program integrity funding it expects to
receive. Since there are no statutory requirements to complete redeterminations on a given
number or percentage of SSI recipients each year, SSA uses discretion when determining the
number of redeterminations to complete.

With the funding SSA received for FY 2014, the Agency estimated it would conduct over
2.4 million redeterminations. 38 However, if, during FY 2014, SSA conducts redeterminations on
36 percent of SSI recipients, the same rate as FY 2003, we estimated SSA would conduct more
than 574,000 additional redeterminations than it has planned. If the additional redeterminations
result in the same savings rate as that anticipated for FY 2014 redeterminations, SSA could
realize more than $416 million in savings by investing an additional $83 million in
redeterminations (see Appendix E, Table E–1). 39 Since SSA uses a predictive model to select
and conduct redeterminations based on the predicted amount of SSI overpayment error, the
amount of savings realized by performing additional redeterminations could be lower than we
estimated. However, even if SSA only realizes half of the savings we estimated, it could still
realize more than $208 million in savings.

To perform additional redeterminations, SSA would need to use appropriated funding beyond the
amount it had planned for redeterminations. Therefore, SSA should prioritize resources toward
redeterminations to ensure only eligible individuals continue receiving benefits and are receiving
the correct payment amounts.

CONCLUSIONS
Because of budget uncertainty, SSA faces many possible funding scenarios. However, under
three of the four funding scenarios we analyzed, SSA eventually expects to return to historically
high program integrity workloads by FY 2018. Based on these three funding scenarios, we
estimated SSA would reduce or eliminate the full medical CDR backlog by FY 2018.
Ultimately, only one of the four scenarios results in SSA preventing the backlog from returning
through FY 2023.



37
     Supra note 33 at p. 6.
38
  SSA’s MIVision National RZ Volume Tracker indicated the Agency’s goal is to conduct more than 2.4 million
non-medical redeterminations and 178,900 limited issues in FY 2014.
39
 In FY 2014, SSA expects average net savings of $5 per $1 spent on redeterminations, including savings to
Medicaid. See SSA Full Justification of Estimates for Appropriations Committees Fiscal Year 2014, Budget
Overview, April 2013, page 16.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                               11
Regardless of the amount of dedicated program integrity funding the Agency receives, one of
SSA’s primary responsibilities is performing stewardship duties. By failing to conduct all of its
stewardship duties, SSA not only misses opportunities for potential savings, it risks losing the
public’s confidence in the Agency’s programs.

RECOMMENDATION
We recommend SSA prioritize resources toward medical CDR and non-medical redetermination
workloads to ensure only eligible individuals continue receiving benefits and are receiving the
correct payment amounts.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in Appendix F.




SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                 12
                                      APPENDICES




SSA’s Completion of Program Integrity Workloads (A-07-14-24071)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed applicable Federal laws and regulations and sections of the Program Operations
    Manual System related to continuing disability reviews (CDR) and redeterminations.

   Reviewed prior Office of the Inspector General and Government Accountability Office
    reports related to CDRs, redeterminations, and backlogs in other Social Security
    Administration (SSA) workloads.

   Reviewed SSA’s plans to reduce the initial disability claims and hearings backlogs.

   Reviewed periodical SSA publications, such as the Full Justification of Estimates for
    Appropriations Committees and Supplemental Security Income (SSI) Monthly Statistics, to
    identify SSA’s annual budget requests and the numbers of SSI recipients at the beginning of
    Fiscal Years (FY) 2002 through 2014.

   Obtained information from SSA’s Offices of Budget, Finance, Quality, and Management;
    Public Service and Operation Support; and the Chief Actuary to obtain and verify the number
    of CDRs and redeterminations performed during FYs 2002 through 2013 and expected to be
    performed during FYs 2014 through 2023. We also obtained information on the annual
    budget process and the annual Commissioner’s Budget request.

   Calculated estimated savings for CDRs (see Appendix D) and redeterminations (see
    Appendix E) for FYs 2014 through 2023.

The entity reviewed was the Office of Operations. Our work was conducted at the Office of
Audit in Kansas City, Missouri, from December 2013 through March 2014. We determined that
the data used in this report were sufficiently reliable given the review objective and its intended
use. We conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.




SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                 A-1
Appendix B – BUDGET REQUESTS, APPROPRIATIONS, AND
             WORK YEARS
Since Fiscal Year (FY) 2002, the Social Security Administration’s (SSA) appropriations have
generally been less than SSA requested (see Table B–1). 1 Although SSA generally received less
funding than requested, its funding levels increased every year from FYs 2002 through 2010.
However, the number of work years SSA employees completed did not increase accordingly. 2

              Table B–1: SSA Budget Requests, Appropriations, and Work Years
                                 FYs 2002 Through 2013
                  Commissioner’s              President’s          Congressional    Work
           Fiscal                           Budget Request
                  Budget Request                                   Appropriations   Years
           Year
                    (Millions)                 (Millions)            (Millions)   Completed
           2002            $7,982                $7,679                  $7,682             80,689
           2003            $7,974                $8,050                  $8,005             80,043
           2004            $8,895                $8,650                  $8,448             80,926
           2005            $9,310                $8,997                  $8,858             83,064
           2006           $10,106                $9,523                  $9,265             81,531
           2007           $10,230                $9,619                  $9,417             77,254
           2008           $10,420                $9,719                  $9,864             77,963
           2009           $10,395               $10,460                 $10,587             81,394
           2010           $11,800               $11,603                 $11,598             86,779
           2011           $13,100               $12,528                 $11,569             86,675
           2012           $12,938               $12,667                 $11,564             82,121
           2013           $12,470               $11,916                 $11,159             78,682




1
 For the purposes of this report, SSA’s appropriations refer to SSA’s budget authority. SSA’s budget authority
generally includes Limitation on Administrative Expenses, dedicated program integrity funding, research funding,
and funding for the Office of Inspector General. Limitation on Administrative Expenses is the amount of money
Congress allows SSA to spend annually to carry out the administrative functions of the Agency.
2
 Work years represent both direct and indirect time used by SSA employees. Indirect time includes overhead, such
as time spent on training, travel, leave, and holidays.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                B-1
Appendix C – CONTINUING DISABILITY REVIEWS,
             FISCAL YEARS 2002 THROUGH 2013
By regulation, review diaries are set to conduct periodic continuing disability reviews (CDR) on
disabled individuals. 1 However, the Social Security Administration (SSA) did not always
complete CDRs when they became due. At the end of Fiscal Year (FY) 1996, there was a
backlog of about 4.3 million full medical CDRs. According to SSA, there was a backlog of
CDRs because of budget constraints on conducting CDRs. In response to this CDR backlog,
Congress authorized about $4 billion to fund SSA’s 7-year plan to eliminate the CDR backlog. 2
From FYs 1996 through 2002, SSA conducted about 9.4 million CDRs and became current with
its CDR workload.

With reductions in full medical CDRs since FY 2002, SSA re-created a backlog of full medical
CDRs. The backlog had decreased somewhat since FY 2009; however, the backlog remained
around 1.3 million full medical CDRs at the end of FY 2013 (see Table C–1).

                  Table C–1: CDRs Completed and Full Medical CDR Backlog
                                  FYs 2002 Through 2013
                                CDRs Completed            Full Medical
                   Fiscal                                                    Full Medical
                              (including mailer and          CDRs
                   Year                                                      CDR Backlog
                               full medical CDRs)          Completed
                    2002            1,586,091               856,849                0
                    2003            1,371,255               669,385             102,000
                    2004            1,604,680               681,010             101,000
                    2005            1,515,477               530,381             458,000
                    2006            1,337,638               316,913             946,000
                    2007             764,852                207,637            1,202,000
                    2008            1,091,303               245,388            1,438,000
                    2009            1,101,983               316,960            1,496,000
                    2010             956,182                324,567            1,361,000
                    2011            1,408,897               345,492            1,330,000
                    2012            1,404,302               443,233            1,308,000
                    2013            1,575,515               428,568            1,330,000




1
 20 C.F.R. §§ 404.1590 and 416.990. The Commissioner of Social Security can waive the requirement to conduct
CDRs on non-permanent disabilities due every 3 years. 20 C.F.R. §§ 404.1590(g) and 416.990(g).
2
 Contract with America Advancement Act of 1996, Pub. L. No. 104-121, Senior Citizens’ Right to Work Act of
1996, Title I, § 103,110 Stat.847, 848-849.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                              C-1
Appendix D – CONTINUING DISABILITY REVIEWS UNDER
             DIFFERENT PROGRAM INTEGRITY FUNDING
             SCENARIOS, FISCAL YEARS 2014 THROUGH 2023
Because of budget uncertainty, the Social Security Administration (SSA) estimated the numbers
of full medical continuing disability reviews (CDR) it could complete in the future based on
different funding scenarios. For example, SSA reported it would need $11.8 billion during
Fiscal Years (FY) 2014 through 2023 to eliminate the full medical CDR backlog by FY 2018 and
prevent its recurrence through FY 2023 (see Table D–1). At this funding level, SSA estimated it
would conduct more than 8.8 million full medical CDRs. Under this funding scenario, SSA
estimated it would identify several billion dollars in lifetime Federal benefit savings each year. 1




1
    Federal benefit savings include savings to SSA, Medicare, and Medicaid.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                 D-1
              Table D–1: Projected Full Medical CDR Costs and Savings to Eliminate
               the Backlog by FY 2018 and Prevent its Recurrence Through FY 2023 2
                                                                                       Estimated
                       Projected                                    Estimated
          Fiscal                          Projected Total                             Year-end Full
                      Full Medical                               Federal Lifetime
          Year                                 Cost                                   Medical CDR
                         CDRs                                    Benefit Savings
                                                                                        Backlog 3
           2014          700,000            $749,000,000          $9,494,000,000
           2015         1,000,000          $1,124,000,000        $13,044,000,000
           2016         1,100,000          $1,298,000,000        $10,526,000,000
           2017         1,025,000          $1,270,000,000         $8,146,000,000              0
           2018          858,000           $1,116,000,000         $8,393,000,000              0
           2019          850,000           $1,161,000,000         $8,980,000,000              0
           2020          843,000           $1,208,000,000         $9,009,000,000              0
           2021          835,000           $1,257,000,000         $8,840,000,000              0
           2022          812,000           $1,284,000,000         $8,963,000,000              0
           2023          804,000           $1,335,000,000         $9,163,000,000              0
          Total         8,827,000         $11,802,000,000

At the funding level provided by the Budget Control Act of 2011 (BCA), SSA estimated it would
conduct approximately 7.8 million full medical CDRs at a cost of $10.3 billion during FYs 2014
through 2023 (see Table D–2). 4 Under this funding scenario, SSA estimated it would identify
several billion dollars in lifetime Federal benefit savings each year. Further, we estimated SSA
would reduce the full medical CDR backlog to 382,500 by the end of FY 2018. However, we
estimated the backlog would grow in subsequent years and exceed 1 million full medical CDRs
by FY 2023.


2
  SSA provided the projected number of full medical CDRs it would conduct and the projected total cost. SSA’s
Office of the Chief Actuary provided the estimates of net Federal benefit savings. Estimates are based on the
intermediate sets of assumptions of the 2013 Old-Age, Survivors and Disability Insurance (OASDI) and Medicare
Trustees Reports and the assumptions underlying the projections in the 2013 Supplemental Security Income (SSI)
Annual Report.
3
  The full medical CDR backlog is calculated by subtracting the numbers of full medical CDRs conducted from the
numbers of CDRs that become due each year. SSA did not provide the number of full medical CDRs that became
due each year. However, according to SSA, it needs to conduct 3,825,000 full medical CDRs during FYs 2014
through 2017 to eliminate the full medical CDR backlog by FY 2018. Thus, we calculated the number of full
medical CDRs that would become due during FYs 2014 through 2017 by subtracting the 1,330,000 full medical
CDRs backlogged at the end of FY 2013 (see Appendix C, Table C–1) from 3,825,000. As such, we estimated SSA
would conduct 2,495,000 of the CDRs that would become due during FYs 2014 through 2017 as full medical CDRs.
According to SSA, the full medical CDRs backlog could be reduced because beneficiaries due for a full medical
CDR reach full retirement age or die. Our analysis did not account for this reduction. In addition, we did not
consider CDRs that would become due during FYs 2014 through 2017 that SSA would process as mailers.
4
    Pub. L. No. 112-25, Title I, § 101,125 Stat. 240, 243-244.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                             D-2
             Table D–2: Projected Full Medical CDRs Costs, Savings, and Backlog
                       Under BCA Funding, FYs 2014 Through 20235
                                                                                        Estimated
                   Projected                                     Estimated
       Fiscal                         Projected Total                                  Year-end Full
                  Full Medical                                Federal Lifetime
       Year                                Cost                                        Medical CDR
                     CDRs                                     Benefit Savings
                                                                                         Backlog 6
        2014         764,000            $817,000,000           $10,338,000,000
        2015         887,800            $997,000,000           $11,770,000,000
        2016         865,100           $1,021,000,000           $9,935,000,000
        2017         922,000           $1,143,000,000           $8,275,000,000             386,100
        2018         861,600           $1,121,000,000           $8,357,000,000             382,500
        2019         803,700           $1,098,000,000           $8,875,000,000             428,800
        2020         748,500           $1,073,000,000           $8,858,000,000             523,300
        2021         696,000           $1,048,000,000           $8,578,000,000             662,300
        2022         646,000           $1,021,000,000           $8,548,000,000             828,300
        2023         598,000            $993,000,000            $8,261,000,000            1,034,300
        Total       7,792,700         $10,332,000,000

Another option is that SSA receives funding for the Program Integrity Administrative Expenses
(PIAE) account beginning in FY 2016, with funding at BCA levels in FYs 2014 and 2015. 7 At
this funding level, SSA estimated it would conduct more than 8 million full medical CDRs at a
cost of approximately $10.7 billion during FYs 2014 through 2023 (see Table D–3). Under this
funding scenario, SSA estimated it would identify several billion dollars in lifetime Federal
benefit savings each year. Further, we estimated SSA would reduce the full medical CDR


5
  SSA provided the projected number of full medical CDRs it would conduct and the projected total cost. SSA’s
Office of the Chief Actuary provided the estimates of net Federal benefit savings. Estimates are based on the
intermediate sets of assumptions of the 2013 OASDI and Medicare Trustees Reports and the assumptions underlying
the projections in the 2013 SSI Annual Report.
6
  Supra note 3. SSA assumed 3,825,000 of the CDRs that become due during FYs 2014 through 2017 would be
conducted as full medical CDRs. Therefore, to determine the CDR backlog at the end of FY 2017 assuming BCA
funding, we subtracted the number of full medical CDRs conducted during FYs 2014 through 2017 (3,438,900)
from 3,825,000, which resulted in a backlog of 386,100 CDRs. To determine the backlog at the end of FYs 2018
through 2023, we subtracted the number of CDRs conducted during the year from the number of CDRs due. We
calculated CDRs due by adding the CDR backlog of the prior year to the CDRs SSA assumed would become due
and conducted as full medical CDRs in the current year. For example, in FY 2018, SSA assumed 858,000 of the
CDRs that become due would be conducted as full medical CDRs (see Table D–1). Combined with the backlog of
386,100 CDRs at the end of FY 2017, there would be 1,244,100 CDRs due in FY 2018 that SSA would conduct as
full medical CDRs. We subtracted the 861,600 full medical CDRs SSA would conduct in FY 2018 from the
1,244,100 CDRs due and determined the FY 2018 year-end CDR backlog would be 382,500.
7
 Funding for the PIAE account would be in addition to SSA’s annual appropriations, maintained in a separate
account, and used solely for program integrity workloads.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                               D-3
backlog to 98,000 by the end of FY 2018. However, we estimated the backlog would grow in
subsequent years.

       Table D–3: Projected Full Medical CDRs Costs, Savings, and Backlog Under BCA
        Funding for FYs 2014 and 2015 and PIAE Funding for FYs 2016 Through 2023 8
                                                                                        Estimated
                     Projected                                   Estimated
         Fiscal                       Projected Total                                  Year-end Full
                    Full Medical                              Federal Lifetime
         Year                              Cost                                        Medical CDR
                       CDRs                                   Benefit Savings
                                                                                         Backlog 9
          2014         510,000          $621,000,000           $7,485,000,000
          2015         888,000          $997,000,000          $12,643,000,000
          2016        1,129,000        $1,332,000,000         $14,077,000,000
          2017        1,098,000        $1,361,000,000          $8,595,000,000              200,000
          2018         960,000         $1,249,000,000          $8,634,000,000               98,000
          2019         835,000         $1,141,000,000          $9,086,000,000              113,000
          2020         721,000         $1,034,000,000          $8,834,000,000              235,000
          2021         670,000         $1,009,000,000          $8,530,000,000              400,000
          2022         621,000          $982,000,000           $8,391,000,000              591,000
          2023         575,000          $954,000,000           $8,118,000,000              820,000
          Total       8,007,000       $10,680,000,000

SSA also identified the impact on CDRs if it received dedicated program integrity funding at
levels similar to FYs 2010 through 2013. Specifically, SSA estimated it would conduct
approximately 3.1 million full medical CDRs at a cost of $4.1 billion during FYs 2014 through
2023 (see Table D–4). Under this funding scenario, SSA estimated it would identify several
billion dollars in lifetime Federal benefit savings each year. However, we estimated the full
medical CDR backlog would grow to more than 5.7 million by the end of FY 2023.




8
 SSA provided the projected number of full medical CDRs it would conduct and the projected total cost. SSA’s
Office of the Chief Actuary provided the estimates of net Federal benefit savings. Estimates are based on the
assumptions underlying the President’s Fiscal Year 2015 Budget.
9
    Supra notes 3 and 6.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                 D-4
       Table D–4: Projected Full Medical CDRs Costs, Savings, and Backlog for FYs 2014
      Through 2023 Under Program Integrity Funding Similar to FYs 2010 Through 201310
                                                                                      Estimated
                      Projected                                 Estimated
          Fiscal                      Projected Total                                Year-end Full
                     Full Medical                            Federal Lifetime
          Year                             Cost                                      Medical CDR
                        CDRs                                 Benefit Savings
                                                                                       Backlog 11
           2014         357,000        $382,000,000           $5,303,000,000
           2015         345,000        $387,000,000           $5,206,000,000
           2016         334,000        $395,000,000           $5,025,000,000
           2017         324,000        $402,000,000           $5,038,000,000            2,465,000
           2018         314,000        $409,000,000           $5,101,000,000            3,009,000
           2019         305,000        $417,000,000           $5,163,000,000            3,554,000
           2020         294,000        $421,000,000           $5,190,000,000            4,103,000
           2021         284,000        $428,000,000           $5,219,000,000            4,654,000
           2022         273,000        $431,000,000           $5,246,000,000            5,193,000
           2023         263,000        $436,000,000           $5,246,000,000            5,734,000
          Total        3,093,000      $4,108,000,000

With the funding SSA received for FY 2014, it expects to conduct 510,000 full medical CDRs.
While the number of CDRs planned for FY 2014 is higher than the number completed in
FY 2013 (see Appendix C, Table C–1), it is still less than historic rates. For example, if, during
FY 2014, SSA conducted full medical CDRs at the FY 2002 level of 856,849 full medical CDRs,
we estimated SSA would identify more than $4.6 billion in additional benefit savings (see
Table D–5).




10
  SSA provided the projected number of full medical CDRs it would conduct and the projected total cost. SSA’s
Office of the Chief Actuary provided the estimates of net Federal benefit savings. Estimates are based on the
intermediate sets of assumptions of the 2013 OASDI and Medicare Trustees Reports and the assumptions underlying
the projections in the 2013 SSI Annual Report.
11
     Supra notes 3 and 6.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                            D-5
        Table D–5: Additional Cost and Savings by Conducting CDRs at FY 2002 Level in
                                           FY 2014
                                   Full Medical CDRs Based            Full Medical CDRs
                                                                                                      Difference
                                     on FY 2014 Funding                at FY 2002 Level
Full Medical CDRs                          510,000 12                      856,849 13                 346,849
Projected Total Cost 14                  $621,000,000                    $992,766,632               $371,766,632
Estimated Federal
                                        $7,485,000,000 15              $12,132,082,900 16          $4,647,082,900
Lifetime Benefit Savings




 12
  SSA, Full Justification of Estimates for Appropriations Committees Fiscal Year 2015, Budget Overview,
 March 2014, page 9.
 13
      See Appendix C, Table C–1.
 14
    SSA expects to conduct 510,000 full medical CDRs at a cost of $621 million and realize estimated Federal
 lifetime benefit savings of almost $7.5 billion (see Table D–3). This equates to an average cost of almost $1,218 per
 full medical CDR and savings per $1 spent of $12.05. However, according to SSA, the $621 million includes
 funding to build up resources to enable higher levels of full medical CDRs in future years. Without considering the
 funding to build up CDR resources, SSA estimates the 510,000 full medical CDRs would results in savings of
 $13.72 per $1 spent. Therefore, to calculate the costs of additional full medical CDRs, we first multiplied the
 346,849 additional full medical CDRs by $1,218, for a total cost of $422,462,082. Since this cost is overstated, we
 multiplied $422,462,082 by the ratio of 12.05 to 13.72 (0.88), for a cost of $371,766,632. Therefore, if SSA
 conducted 856,849 full medical CDRs, we estimated the total cost would be $992,766,632 ($371,766,632 plus
 $621,000,000), including the cost to build up resources for future years.
 15
      See Table D–3.
 16
   SSA estimated that the additional 346,849 full medical CDRs would result in average savings of $12.50 per $1 in
 costs. Therefore, the projected present value of Federal lifetime benefit savings on the additional CDRs would be
 $4,647,082,900 ($12.50 times $371,766,632). Therefore, if SSA conducted 856,849 full medical CDRs, we
 estimated SSA would realize Federal lifetime benefit savings of $12,132,082,900 ($4,647,082,900 plus
 $7,485,000,000).



 SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                  D-6
Appendix E – REDETERMINATIONS, FISCAL YEAR 2014
With the funding the Social Security Administration (SSA) received for Fiscal Year (FY) 2014,
the Agency estimated it would conduct over 2.4 million non-medical redeterminations. 1
However, if, during FY 2014, SSA conducts redeterminations on 36 percent of Supplemental
Security Income (SSI) recipients, the same rate as FY 2003, we estimated SSA would conduct
more than 574,000 additional redeterminations than it has planned. If the additional
redeterminations result in the same savings rate as that anticipated for FY 2014 redeterminations,
SSA could realize more than $416 million in savings by investing an additional $83 million
towards redeterminations (see Table E–1). Since SSA uses a predictive model to rank and
conduct redeterminations based on the predicted amount of SSI overpayment error, the amount
of savings realized by performing additional redeterminations could be lower than we estimated.
Even if SSA only realizes half of the savings we estimated, the Agency could still realize more
than $208 million in savings.




1
  SSA’s MIVision National RZ Volume Tracker indicated the Agency’s goal is to conduct 2,443,100 non-medical
redeterminations and 178,900 limited issues in FY 2014. Limited issues are selected for limited review because of a
single issue, such as an alert resulting from a match between SSA’s records and those of another agency.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                E-1
         Table E–1: Additional Cost and Savings from Redeterminations by Conducting
                      Redeterminations at the FY 2003 Level in FY 2014
                                                  Redeterminations Redeterminations
                                                     Based on      at FY 2003 Level                 Difference
                                                  FY 2014 Funding     (36 percent) 2
Estimated Redeterminations                           2,443,100 3        3,017,115                     574,015
Estimated Cost per
                                                                               $145
Redetermination 4
Estimated Total Cost (Estimated
Redeterminations times Estimated                     $354,249,500            $437,481,675          $83,232,175
Cost per Redetermination)
Approximate Savings from
Redeterminations—Upper Estimate                    $1,771,247,500           $2,187,408,375         $416,160,875
(Estimated Total Cost times $5) 5
Approximate Savings from
Redeterminations—Lower Estimate
(Difference in Approximate Savings                        N/A                      N/A             $208,080,438
from Redeterminations times
50 percent)




2
  There were 8,380,874 SSI recipients receiving a Federal SSI payment, State supplement, or both at the beginning
of FY 2014. See SSA’s SSI Monthly Statistics, Table 1, October 2013. To calculate the number of estimated
redeterminations, we multiplied the number of SSI recipients (8,380,874) by 36 percent.
3
    Supra note 1.
4
    The average cost per redetermination was provided by SSA’s Office of Budget.
5
 In FY 2014, SSA expects average net savings of $5 per $1 spent on redeterminations, which includes savings to
Medicaid. See SSA Full Justification of Estimates for Appropriations Committees Fiscal Year 2014, Budget
Overview, April 2013, page 16.



SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                                                E-2
           Appendix F – AGENCY COMMENTS




                                           SOCIAL SECURITY

MEMORANDUM


Date:      July 17, 2014                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff
Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s Completion
           of Program Integrity Workloads (A-07-14-24071) --INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                               F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"THE SOCIAL SECURITY ADMINISTRATION’S COMPLETION OF PROGRAM
INTEGRITY WORKLOADS" (A-07-14-24071)

Recommendation 1

Prioritize resources toward medical CDR and non-medical redetermination workloads to ensure
only eligible individuals continue receiving benefits and are receiving the correct payment
amounts.

Comment

We agree that SSA needs to conduct timely continuing disability reviews (CDR). Our ability to
conduct timely CDRs, though, depends greatly upon the funding we receive – we must have
adequate and sustained funding to address our annual CDR workload. We will continue to
employ our systematic strategy of prioritizing resources to accomplish program integrity
workloads, including medical CDRs and non-medical Supplemental Security Income (SSI)
redeterminations, based on the annual appropriation we receive from Congress. We must always
balance our service delivery demands against our stewardship responsibilities for ensuring the
integrity of our programs, both of which are dependent upon the annual appropriation we receive
and the resources the appropriation will support. In addition, our fiscal year (FY) 2015
President's Budget requests the Budget Control Act (BCA) funding level for our program
integrity work. If enacted, this funding level will allow us to conduct 2,622,000 non-medical SSI
redeterminations and 888,000 medical CDRs in FY 2015, which is a 74 percent increase over the
510,000 medical CDRs budgeted for in FY 2014. Continued support by Congress to fund us at
BCA levels will position us to eliminate the CDR backlog over time.




SSA’s Completion of Program Integrity Workloads (A-07-14-24071)                              F-2
Appendix G – MAJOR CONTRIBUTORS
Mark Bailey, Director, Kansas City Audit Division

Tonya Eickman, Audit Manager

Shannon Agee, Audit Manager

Jesse Card, Auditor

Katherine Muller, Auditor




SSA’s Completion of Program Integrity Workloads (A-07-14-24071)   G-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
